                IMPROVING THE PROCESS
                         FOR
               FORGIVING STUDENT LOANS


                                FINAL AUDIT REPORT




                                  Audit Control Number 06-80001
                                            June 1999




Our mission is to promote the efficient                           U.S Department of Education
and effective use of taxpayer dollars                               Office of Inspector General
in support of American education                                                  Dallas, Texas
                        NOTICE
Statements that management practices need improvement, as
well as other conclusions and recommendations in this report,
represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by
appropriate Department of Education officials. This report
may be released to members of the press and general public
under the Freedom of Information Act.
                         TABLE OF CONTENTS

EXECUTIVE SUMMARY ....................................................................................1

AUDIT RESULTS .................................................................................................3

        How the Current System Works for Disability
         and Death Discharges.................................................................................3
        Totally and Permanently Disabled Borrowers Earned Wages
         After the Discharges...................................................................................5
        Totally and Permanently Disabled Borrowers Returned to School
         After the Discharges...................................................................................7
        Borrowers Who Received a Discharge Because of Death
         Subsequently Earned Wages.....................................................................10
        Alternative Method for Making Disability Determinations..........................11

RECOMMENDATIONS .....................................................................................14

BACKGROUND .................................................................................................14

AUDIT SCOPE AND METHODOLOGY ...........................................................16

ATTACHMENT
                         EXECUTIVE SUMMARY

Student loans are being discharged (forgiven) for total and permanent disability and death even
though the borrowers are apparently not totally and permanently disabled or deceased.

The Higher Education Act provides for loan discharges when the borrower either becomes
totally and permanently disabled or dies. The Department of Education (Department) defines
total and permanent disability as a condition which prevents an individual from working and
earning money or attending school because of an injury or illness that is expected to continue
indefinitely or result in death.

During the period from July 1, 1994, through December 31, 1996, Federal Family Education
Loan Program (FFELP) loans totaling over $292 million were discharged for borrowers
claiming total and permanent disability and over $216 million were discharged for borrowers
who died. We matched all of the borrowers who received these disability and death discharges
with the Social Security Administration’s master earning records for 1997. We identified
9,798 individual borrowers, or 23 percent of the total disabled borrowers, who were earning
wages after having over $73 million in loans forgiven. Eighty-one of these individuals earned
more than $50,000 in 1997 after receiving a disability discharge. We also found that 708
borrowers who had received death discharges totaling over $3.8 million, were earning wages
after the discharge. Additionally, over 6,800 new loans totaling almost $20 million have been
awarded to borrowers who returned to school after previously having loans totaling nearly
$11.5 million discharged due to total and permanent disability.

Inappropriate discharges are apparently occurring because of control weaknesses in the current
system for determining borrower eligibility for the disability or death discharge. Similar
procedures are followed for determining borrower eligibility for a William D. Ford Federal
Direct Student Loan Program loan discharge. The Department can make immediate changes
to strengthen the current system for loan discharges applicable to disability and death. In
addition, the Social Security Administration=s Disability Determination Service (DDS) has a
nation-wide system and infrastructure in place which could be used to provide increased
assurance that disability determinations are reliable and accurate.


                                         (continued)
                   EXECUTIVE SUMMARY (continued)

We are recommending that the Department:

1.     Enhance the current discharge determination procedures by: (a) revising the disability
       form to include, at a minimum, the doctor=s professional license number and office
       telephone number; and (b) requiring certified copies of death certificates;

2.     Establish a focal point for guaranty agency technical assistance and for monitoring the
       administration of the discharges;

3.     Provide additional guidance to guaranty agencies regarding borrower requests for
       discharge if the guaranty agency suspects or becomes aware of conflicting information
       concerning the disability either before or after the discharge is granted;

4.     Establish a procedure for reinstating a discharged loan if information obtained after-
       the-fact indicates that the borrower was not eligible for the disability or death
       discharge; and

5.     Concurrent with the implementation of the above recommended actions, consider: (a)
       negotiating an agreement with the Social Security Administration for determining if
       borrowers are totally and permanently disabled according to the Department=s disability
       definition or simply requiring that borrowers qualify for total and permanent disability
       benefits under the Social Security Administration as a condition for loan discharge; and
       (b) modifying the existing sections of the regulations to reflect the change.

We believe that implementing these recommendations will result in an annual better use of
about $35.0 million. The Department concurred with our findings and recommendations. A
copy of the OSFAP response is attached to this report.
Audit Control Number 06-80001                                                                Page 3


                                  AUDIT RESULTS
Borrowers are receiving disability and death discharges even though they are apparently not
totally and permanently disabled or deceased. Our review identified a significant number of
FFELP loans that have been inappropriately discharged for borrowers who claimed to have a total
and permanent disability. Borrowers who received disability discharges of over $73 million were
earning wages and borrowers who received disability discharges of nearly $11.5 million returned
to school and received additional loans and grants. Additionally, our review identified over $3.8
million in FFELP loans discharged for borrowers who inappropriately received a death discharge.
We found that these borrowers were earning wages after receiving the death discharge.

This report discusses how the current system works, the results of our analysis of student financial
aid (SFA) and wage earnings information, and provides alternatives for discharging loans for total
and permanent disability and death.


How the Current System                The current regulations provide for the forgiveness of
Works for Disability and              student loans if the borrower becomes totally and
  Death Discharges                    permanently disabled which the Department defines as the
                                      condition of an individual who is unable to work and earn
                                      money or attend school because of an injury or illness that
                                      is expected to continue indefinitely or result in death (34
                                      CFR 682.200). The current disability determination system
                                      is initiated and controlled by the borrower. Borrowers
                                      contact their lender or guaranty agency to obtain the
                                      disability form. The lender or guaranty agency sends the
                                      form to the borrower. The borrower takes the form to his
                                      or her Doctor of Medicine or Osteopathy.

                                      The doctor completes and signs the form and the borrower
                                      mails it to the lender or guaranty agency. The guaranty
                                      agency or lender staff reviews the form for completeness
                                      and determines if the date that the borrower became totally
                                      and permanently disabled was subsequent to the date of the
                                      loan(s). If the loan date was prior the disability date, the
                                      loan is discharged. Additionally, if a pre-existing condition
                                      deteriorated after the loan guaranty date, the loan is
                                      discharged. Although one state guaranty agency we visited
                                      checked the employment status of disability applicants with
                                      the state employment agency, the current process does not
                                      require verification of employment. The
Audit Control Number 06-80001                                                         Page 4

                                current process also does not require or provide for
                                verification that the doctor actually saw the patient. The
                                Department=s Debt Collection Services uses a similar
                                process to discharge loans for borrowers whose loan(s) are
                                held by the Department. A similar process is also used for
                                determining borrower eligibility for a William D. Ford,
                                Federal Direct Student Loan discharge.

                                Department officials acknowledged that there is no single
                                point of contact within the Department where guaranty
                                agencies can call to obtain guidance regarding discharges.
                                An official at a guaranty agency was unsure how to proceed
                                if she became aware of conflicting information before or
                                after the discharge. Further, there is no process for
                                reinstating a discharged loan if information available after-
                                the-fact shows that the borrower was not eligible for the
                                discharge. For example, one guaranty agency we visited
                                checks state employment records to determine if the
                                borrower is employed. The discharge is refused if state
                                records indicate the borrower is employed. However, an
                                official at another guaranty agency was aware that a
                                borrower was employed but did not know whether she had
                                the authority to override the discharge and reinstate the
                                loan.

                                The current regulations also provided for the forgiveness of
                                student loans if the borrower dies or the student for whom a
                                parent received a PLUS loan dies [34 CFR 682.402 (b)(1)].
                                In determining that a borrower (or student) has died, the
                                lender may rely on a death certificate or other proof of
                                death that is acceptable under applicable state law [34 CFR
                                682.402 (b)(2)]. Both guaranty agencies visited as well as
                                the Department accepted copies of the death certificate.
                                None of the offices visited required a certified copy of the
                                death certificate.
Audit Control Number 06-80001                                                              Page 5

Our comparison of discharged loan records with the Social Security Administration=s master
earnings records, analysis of loan data on the National Student Loan Data System (NSLDS), and
an analysis of Federal Pell Grant data disclosed that borrowers were employed and earning wages
or returned to school after their disability discharge determinations were made.


Totally and Permanently             Any mental or physical condition described by a doctor is
  Disabled Borrowers                accepted by guaranty agencies and the Department to
Earned Wages After the              discharge loans for total and permanent disability. One
                                    official told us that, AThe doctor=s diagnosis is not
       Discharges                   questioned.@

                                    We reviewed a random sample of 75 disability discharge
                                    claims at two guaranty agencies. Our review of the
                                    borrower’s files disclosed that in 19 instances, the diagnosis
                                    was completely or partially unreadable, yet the discharge
                                    was granted because the doctor’s signature section of the
                                    form was signed and the disability date was after the loan
                                    date. We were advised, by one guaranty agency, that the
                                    staff reviewing the disability forms have no medical
                                    background, which would make it even more difficult for
                                    them to understand some of the medical terminology used
                                    by the doctors.

                                    At one of the guaranty agencies visited, we reviewed the
                                    results of a match they performed against state employment
                                    and earnings records for individuals who received loan
                                    discharges because of total and permanent disability. The
                                    comparison disclosed that about 10 percent of the
                                    borrowers became employed after a discharge was granted.
                                    For example, one borrower was certified by a doctor to be
                                    totally and permanently disabled for work or school in
                                    December 1995. The borrower had more than $42,000 in
                                    loans discharged. That same borrower earned more than
                                    $75,000 between April 1996 and June 1997.
Audit Control Number 06-80001                                                                               Page 6

                                            Another borrower earned in excess of $57,000 for the same
                                            period after receiving a disability discharge of almost
                                            $11,000 in September 1994. This particular borrower was
                                            earning wages after having loans discharged for “… chronic
                                            low back pain.” Other borrowers were earning wages in
                                            excess of $20,000 each, after having loans discharged for
                                            total and permanent disabilities of “...memory loss…” or
                                            “… reconstruction of right ankle.” Because we also found
                                            loans being discharged for conditions such as “...carpal
                                            tunnel syndrome... ”, “…depression... ”, “…fractured
                                            elbow...”, and “…serve (sic) headaches...”, we expanded
                                            our analysis.

                                            We matched the entire universe of borrowers who had
                                            received disability discharges from July 1, 1994 through
                                            December 31, 1996 with the Social Security
                                            Administration=s master earnings records. If a borrower
                                            received a discharge in 1995 and had earnings in 1996 or
                                            1997, we concluded that the borrower earned wages after
                                            receiving the disability discharge. The analysis disclosed
                                            that 9,798 individuals, or 23% of the total borrowers who
                                            received discharges, earned wages after the time that a total
                                            and permanent disability determination was made or a
                                            discharge was received. These borrowers apparently were
                                            working after having over $73 million in loans discharged
                                            for total and permanent disability. A breakdown by ranges
                                            of annual earnings follows1:

                                            • 81 borrowers received a disability discharge and then
                                                 earned $50,000 or more in 1997.

                                            • 328 borrowers received a disability discharge and then
                                                 earned between $30,000 and $50,000 in 1997.

                                            • 9,389 borrowers received a disability discharge and
                                                 earned up to $30,000 in 1997.



    1
     Because of the Computer Matching and Privacy Protection Act of 1988, the information provided to us by the
Social Security Administration was limited to summary computer matches within ranges of earnings.
Audit Control Number 06-80001                                                          Page 7

Totally and Permanently         A financial aid administrator (FAA) we contacted provided
  Disabled Borrowers            an example, which she felt, illustrated how easily the
Returned to School After        disability discharge process could be abused. A student had
                                recently applied for loans after enrolling in an undergraduate
     the Discharges             program at the FAA’s university. The student had just
                                obtained disability discharges from four different guaranty
                                agencies for loans from nine schools totaling more than
                                $40,000. Six days after obtaining the last discharge because
                                of total and permanent disability, the student obtained a
                                statement from a different doctor who indicated her
                                condition was Astable at present@ and she was capable of
                                going back to school. The student was approved for
                                $10,500 in new FFELP loans. The student’s ability to
                                return to school is an indication to us that the disabling
                                condition that was the basis for the discharged loans was
                                neither total nor permanent as defined by the Department.

                                During our visit to one guaranty agency, we noted other
                                borrowers receiving new loans that did not appear to be
                                totally or permanently disabled according to the
                                Department=s definition:

                                • A borrower=s defaulted loans totaling $11,634 were
                                   discharged because a doctor certified that the borrower
                                   was totally and permanently disabled for work or
                                   school. The borrower received a new loan for $2,890
                                   within six months of the discharge.

                                • A borrower was determined totally and permanently
                                   disabled for work or school and had defaulted loans
                                   totaling $8,517 discharged. The borrower subsequently
                                   received four additional loans totaling $9,565. The first
                                   new loan was received within about six months of the
                                   discharge.

                                The number of individuals that received disability discharges
                                and then returned to school increased significantly after July
                                1, 1995. We believe that this increase is at least partly due
                                to the revision of a FFELP regulatory provision (34 CFR
                                682.201) which had required that all previously discharged
                                loans be reaffirmed before a borrower was eligible for any
                                new loan. The change in the
Audit Control Number 06-80001                                                                  Page 8

                                regulations was made to conform the FFELP regulations to
                                those of the William D. Ford Federal Direct Student Loan
                                Program. The regulation continues to require the borrower
                                to obtain a certification from a doctor that he or she is able
                                to engage in substantial gainful activity in order to be
                                eligible for additional loans.

                                The amount of new loans awarded to borrowers with
                                previous discharges for disability increased from about $1.9
                                million to $8.6 million, or 351 percent, from the 1994 to the
                                1997 award year. The following figure illustrates the
                                change in the amount of new loans obtained by borrowers
                                who had previous loans discharged due to disability before
                                and after the July 1, 1995 change in the regulations.




                                                    Figure 1: New loans made to borrowers
                                                    subsequent to their receiving disability
                                                    discharges have increased dramatically.




                                From the July 1, 1995 effective date of the regulatory
                                change to February 1998, over 6,800 new loans totaling
                                almost $20 million have been awarded to 2,475 borrowers
                                who previously had loans totaling nearly $11.5 million
                                discharged due to total and permanent disability. Of the
                                2,475 borrowers in this analysis that had loans discharged,
                                504, or over 20 percent, returned to school within one year.
                                We did not obtain comparative information for the Direct
Audit Control Number 06-80001                                                                  Page 9

                                  Student Loan Program. However, it is likely that similar
                                  conditions could exist because a similar disability
                                  determination system is used.

                                  In addition to these new loans, students who received total
                                  and permanent disability discharges also returned to school
                                  and received Federal Pell Grants. During Pell award years
                                  1994 through 1997, 5,816 students received over $7 million
                                  of Pell Grant funds after they received disability discharges.
                                   Of these students, 1,411, or nearly 25 percent, also
                                  received one or more new student loans. The remaining
                                  4,405 students received only Pell Grants. As shown in
                                  Figure 2, about $1.1 million was awarded during award year
                                  1994. The awards increased to over $2.8 million for award
                                  year 1997.



  Pell Grants Awarded After Disability Discharges
      3

    2.5

      2
                                                       Figure 2: Pell Grants awarded to students after
    1.5
                                                       they had loans discharged for disabilities have
                                                       also increased.
      1

    0.5

      0
      1994         1995         1996           1997
                      Award Years




                                 Many of these students returned to school within one year of
                                 having a loan discharged for total and permanent disability.
                                 We believe our analysis of new loans and Pell Grants
                                 indicates that there is a need for the Department to establish
Audit Control Number 06-80001                                                          Page 10

                                a policy for reinstating loans for borrowers returning to
                                school soon after receiving a discharge for total and
                                permanent disability.

                                The Department has a mechanism to accommodate
                                borrowers whose disability is not total and permanent. A
                                temporary disability deferment can be granted for up to three
                                years and is designed to relieve borrowers of their loan
                                payments while they are temporarily disabled. We believe
                                that borrowers that inappropriately receive a total and
                                permanent disability discharge and then shortly thereafter
                                wish to return to school should be required to reinstate the
                                discharged loans before receiving new loans. After the
                                discharged loan has been reinstated, the borrower could then
                                request a temporary disability deferment or an in-school
                                deferment. By requiring borrowers to reinstate
                                inappropriately discharged loans, we estimate that over
                                $4.3 million annually could be better used at no additional
                                cost to the Department ($11.5 million ÷ 32 months x 12
                                months).


Borrowers Who Received          We reviewed a random sample of 57 death discharge claims
 a Discharge Because of         at the two guaranty agencies. We noted death certificates
   Death Subsequently           that were typed except for the individual=s name which were
                                hand-written. Additionally, one guaranty agency told us that
     Earned Wages               they had received a death discharge claim and an altered
                                copy of a certificate of death. The borrower had apparently
                                altered his twin brother=s certificate of death by changing the
                                name and social security number on the certificate to his own
                                in an attempt to get his FFELP loans discharged.

                                While we did not verify the validity of the death certificates
                                during our audit, the examples we noted indicated a need for
                                a policy regarding acceptable proof of death. We determined
                                the effect of discharging loans with potentially invalid death
                                certificates by matching all borrowers who had received
                                death discharges, from July 1, 1994 through December 31,
                                1996, with the Social Security Administration=s master
                                earnings records. The analysis disclosed that 708 or 2% of
                                the total borrowers who
 Audit Control Number 06-80001                                                                                  Page 11

                                              received death discharges earned wages after having $3.8
                                              million in loans discharged2. A breakdown by ranges of
                                              annual earnings follows:

                                               • 150 borrowers received a death discharge and then
                                                    earned $50,000 or more in 1997.

                                               • 191 borrowers received a death discharge and then
                                                    earned between $30,000 and $50,000 in 1997.

                                               • 367 borrowers received a death discharge and earned up
                                                    to $30,000 in 1997.

                                              In our opinion, a certified copy of the death certificate should
                                              be required before a discharge is granted for deceased
                                              borrowers. We believe that the results of this match
                                              demonstrate a need for an instruction to guaranty agencies to
                                              only accept a certified copy of a death certificate as the basis
                                              for approving a discharge request. By accepting only
                                              certified copies of death certificates we estimate that at least
                                              $1.5 million annually could be better used at no additional
                                              cost to the Department ($3.8 million ÷ 30 months x 12
                                              months).



 Alternative Methods for                      The doctor=s signature is one of the key components of the
                                              disability determination process. Under the current process
    Making Disability                         there is no assurance that a qualified doctor actually saw the
     Determinations                           borrower and signed the certification of disability form. The
                                              form itself is mailed to the borrower rather than to the doctor
                                              by the lender, guaranty agency, or the Department. The
                                              certification form does not contain verifiable factors such as
                                              the doctor=s professional license number or office telephone
                                              number. If the form contained this information, the
                                              responsible discharge official could at least confirm that the
                                              doctor existed, was licensed to practice medicine, saw the
                                              patient, and made the diagnosis of total and permanent
                                              disability according to the Department definition.
         2
          We did not attempt to determine if any individuals had assumed the identity of a deceased borrower and
fraudulently reported earnings to the Social Security Administration using the name and social security number of the
deceased.
Audit Control Number 06-80001                                                        Page 12

                                While these enhancements to the current system would
                                provide additional control over the process, the Department
                                would not be assured that only doctors of medicine or
                                osteopathy with the necessary expertise made the permanent
                                and total disability determinations. In our opinion,
                                assurance of an appropriate disability determination could
                                be best achieved if the Department used the Social Security
                                Administration=s Disability Determination Service (DDS).

                                The DDS has a nation-wide system and infrastructure in
                                place to evaluate client disability. The DDS process for
                                disability determination is initiated by the claimant but is
                                controlled through the DDS. The claimant obtains the
                                disability form from the local social security office, fills it
                                out, and sends it back to the social security office. The
                                social security office forwards the form to the DDS. The
                                DDS examiner obtains medical records from the claimant=s
                                personal doctor or sends the claimant to a contracted
                                doctor. The examiner evaluates the evidence supporting the
                                condition. A two-person adjudicative team consisting of a
                                doctor or psychological consultant and a disability examiner
                                then makes the disability determination. The DDS notifies
                                the social security office of the decision. The social security
                                office in turn notifies the claimant of the decision. If the
                                disability claim is denied, the claimant is entitled to an
                                appeal. According to the Social Security Administration,
                                the DDS evaluated more than 3.8 million claims nation-wide
                                at an average cost of $346.05 per claim in fiscal year 1997.

                                The Department could contract with the Social Security
                                Administration to use the DDS for disability determinations
                                nation-wide based on the Department=s definition of total
                                and permanent disability. If the DDS processed disability
                                claims for the Department, we estimate that at least $29.2
                                million annually could be better used at a cost of about
                                $5.96 million.
Audit Control Number 06-80001                                                                                 Page 13

                                              The Department and the Social Security Administration
                                              have similar definitions of total and permanent disability3
                                              although the Department=s definition appears to be more
                                              restrictive. As an alternative approach, the Department
                                              could simply require that borrowers seeking a disability
                                              discharge provide evidence that they met the disability
                                              criteria as defined by the Social Security Administration and
                                              had been approved for disability benefits. With this
                                              approach, we estimate that at least $29.2 million annually
                                              could be better used but at no additional cost to the
                                              Department ($73 million ÷ 30 months x 12 months).

                                              The use of the DDS system would provide added assurance
                                              that only borrowers with a total and permanent disability
                                              would be granted a loan discharge. Further, based on our
                                              understanding of the system, using the DDS would not add
                                              any additional burden to the borrower, guaranty agencies,
                                              lenders or the Department. In addition, the borrowers
                                              would either be sent to a doctor at no expense to the
                                              borrower, or the borrower=s doctor would only be required
                                              to report the condition. The DDS examiner and medical
                                              consultant would evaluate the disabling condition using
                                              either the Department=s or the Social Security
                                              Administration=s definition of total disability. Finally, the
                                              DDS would notify the appropriate discharge official of the
                                              determination, who in turn would notify the borrower of the
                                              decision.




3
 Social Security Administration defines disability as: The inability to engage in any substantial gainful activity by
reason of any medically determinable physical or mental impairment(s) which can be expected to result in death or
which has lasted or can be expected to last for a continuous period of not less than 12 months.
Audit Control Number 06-80001                                                                Page 14


                             RECOMMENDATIONS
We are recommending that the Department:

1. Enhance the current discharge determination procedures by: (a) revising the disability form to
   include, at a minimum, the doctor’s professional license number and office telephone number;
   and (b) requiring certified copies of death certificates;

2. Establish a focal point for guarantee agency technical assistance and for monitoring the
   administration of the discharges;

3. Provide additional guidance to guaranty agencies regarding borrower requests for discharge if
   the guaranty agency suspects or becomes aware of conflicting information concerning the
   disability either before or after the discharge is granted; and

4. Establish a procedure for reinstating a discharged loan if information obtained after-the-fact
   indicates that the borrower was not eligible for the disability or death discharge;

5. Concurrent with the implementation of the above recommended actions, consider: (a)
   negotiating an agreement with the Social Security Administration for determining if borrowers
   are totally and permanently disabled according to the Department=s disability definition or
   simply requiring that borrowers qualify for total and permanent disability benefits under the
   Social Security Administration as a condition for loan discharge; and (b) modifying the
   existing sections of the regulations to reflect the change.

We believe that implementing these recommendations will result in an annual better use of about
$35.0 million ($4.3 + $1.5 + $29.2 million). The Department concurred with our findings and
recommendations. A copy of the OSFAP response is attached to this report.



                                   BACKGROUND
The Department and guaranty agencies have the authority to discharge a borrower=s loan
obligation for reasons of death, disability, bankruptcy, false certification by the school, or
attendance at a school that closed (34 CFR 682.402). If the borrower is determined to be totally
and permanently disabled, the obligation of the borrower to make any further payments on the
loan is discharged. In order to receive a disability discharge, a doctor of medicine or osteopathy
must certify that the borrower is totally and permanently disabled. The Department defines total
and permanent disability as:

       The condition of an individual who is unable to work and earn money or attend
       school because of an injury or illness that is expected to continue indefinitely or
       result in death. (34 CFR 682.200)
Audit Control Number 06-80001                                                                Page 15

The phrase AOr attend school@ was added to the definition and became effective in February 1993.

A borrower is not considered totally and permanently disabled on the basis of a condition that
existed before he or she applied for the loan unless that condition substantially deteriorated to the
point of total and permanent disability after the borrower applied for the loan. {34 CFR
682.402(c)(1)(i)}

Prior to July 1, 1995, an otherwise eligible borrower could obtain additional loans if he or she:

       34 CFR 682.201(a)(4)(i) Reaffirms any FFEL loan amount that previously was
       canceled due to the borrower=s total and permanent disability; ...

       (a)(5)(i) In the case of a borrower whose previous loan was canceled due to total
       and permanent disability, obtains a certification from a physician that the
       borrower=s condition has improved and that the borrower is able to engage in
       substantial gainful activity; and

       (a)(5)(ii) Signs a statement acknowledging that any new FFEL loan the borrower
       receives cannot be canceled in the future on the basis of any present impairment,
       unless that condition substantially deteriorates;

Regulations effective July 1, 1995, changed the reaffirmation of loans that had been previously
canceled due to the borrower=s total and permanent disability. The section in the regulation that
dealt with reaffirmation was changed to:

       34 CFR 682.201(a)(4)(i) Reaffirms any FFEL loan amount on which there has
       been a total cessation of collection activity, including all principal and interest
       that has accrued on that amount up to the date of reaffirmation.

Total cessation of collection activity refers to a borrower who has defaulted on a loan on which
the guaranty agency or the Secretary has ceased collection activity.

Section 34 CFR 682.201(a)(5) remained essentially unchanged.

If an individual borrower dies, or the student for whom a parent received a PLUS loan dies, the
obligation of the borrower and any endorser to make any further payments on the loan is
discharged (34 CFR 682.402(b)(1)). In determining that a borrower (or student) has died, the
lender may rely on a death certificate or other proof of death that is acceptable under applicable
state law. If a death certificate or other acceptable proof of death is not available, the borrower’s
obligation on the loan can be discharged only if the guaranty agency determines that other
evidence establishes that the borrower (or student) has died (34 CFR 682.402(b)(2)).
Audit Control Number 06-80001                                                              Page 16

The Social Security Administration=s Disability Determination Service is fully funded by the
Federal Government and is comprised of 54 state agencies responsible for developing medical
evidence and rendering the initial determination on whether the claimant is or is not disabled. The
Social Security Administration defines disability as: ...the inability to engage in any substantial
gainful activity by reason of any medically determinable physical or mental impairment(s) which
can be expected to result in death or which has lasted or can be expected to last for a continuous
period of not less than 12 months.



               AUDIT SCOPE AND METHODOLOGY
The objective of this audit was to determine the nature and extent of the Department=s controls to
ensure that FFELP loans are discharged for reasons authorized by law and regulations. During
our initial limited survey, we identified weaknesses related to processing of discharges for
disability and death. As a result, we limited our audit work to a more detailed evaluation of the
controls over discharges due to the borrower=s total and permanent disability and death.

We judgmentally selected and visited the Texas Guaranteed Student Loan Corporation (TGSLC),
USA Group, and the Department=s Debt Collection Services in San Francisco to examine the
process for FFEL loan discharges for selected borrowers. At TGSLC and USA Group we
reviewed a random sample of borrowers who received a discharge in award years 1995 through
1997. At the Department=s Debt Collection Service, we reviewed 21 files that were currently
being processed for disability, death, closed school, and false certification discharges.

During the planning stage of this audit, we were asked by the Department’s Guarantor and Lender
Oversight Service Director to try to determine if individuals were receiving total and permanent
disability discharges and then returning to work. We identified borrowers who received a
disability or death discharge from the NSLDS. These borrowers were matched with the Social
Security Administration=s master earnings records. The Guarantor and Lender Oversight Service
reimbursed the Social Security Administration for the data match services provided. We also
identified borrowers who received a disability discharge and subsequently received additional
student loans and Pell Grant funds.

We reviewed current, prior, and proposed regulations relating to the discharge of FFELP and
Direct loans due to total and permanent disability. We interviewed guaranty agency and
Department officials. We also visited the Social Security Administration=s Disability
Determination Service in Austin, Texas to gain an understanding of their disability determination
system. We did not evaluate the reliability of computerized data extracted from NSLDS and
matched with the Social Security Administration. However, we believe the data is sufficiently
reliable as used in this report.
Audit Control Number 06-80001                                                      Page 17

Our fieldwork was performed during the period August 1997 through April 1998. Computer
matching and data analysis was performed from January 1998 to February 1999. Fieldwork was
performed at the Office of Postsecondary Education in Washington, D.C.; Debt Collection
Service in San Francisco, CA; guaranty agencies in Texas and Indiana; and the Disability
Determination Service in Texas. Our review was conducted in accordance with the government
auditing standards appropriate to the scope described above.
                      DISTRIBUTION SCHEDULE
                      Audit Control Number 06-80001

Action Official                                                    1

       Greg Woods, Chief Operating Officer
       Office of Student Financial Assistance Programs
       Department of Education
       ROB-3, Room 4004
       7th and D Street, SW
       Washington, DC 20202-5132

Other ED Offices

       Larry Oxendine, Service Director, GLOS, OSFAP               1
       Linda Paulsen, Service Director, AFMS, OSFAP                1
       Ann Clough, AFMS, OSFAP                                     1
       Jeff Baker, Policy, Training, and Analysis Service, OSFAP   1
       Charles Miller, Post Audit Group Supervisor, OCFO           1
       Joe McCormick, Direct Loan Task Force Chairperson, OSFAP    1
       Judith Winston, General Counsel, OGC                        1
       Brian Siegel, OGC                                           1

Office of Inspector General

       Inspector General (A)                                       1
       Deputy Inspector General (A)                                1
       Counsel to the Inspector General                            1
       Assistant Inspector general for Audit (A)                   1
       Assistant Inspector General for Investigations (A)          1
       Assistant Inspector General for Operations – Western Area   1
       Assistant Inspector General for Operations – Eastern Area   1
       Area Managers                                               8
       Director, Planning, Analysis, and Management Services       1
       Director, SFA Advisory and Assistance Teams                 1
